<html>
<title> - PREVENTING STOLEN VALOR: CHALLENGES AND SOLUTIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
           PREVENTING STOLEN VALOR: CHALLENGES AND SOLUTIONS

=======================================================================


                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2012

                               __________

                           Serial No. 112-127

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform




                  U.S. GOVERNMENT PRINTING OFFICE
74-036                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
FRANK C. GUINTA, New Hampshire
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 29, 2012................................     1
Statement of:
    Hebert, Lernes, Director, Officer and Enlisted Personnel 
      Management, Office of the Under Secretary of Defense for 
      Personnel and Readiness, U.S. Department of Defense; 
      Colonel Jason Evans, Adjutant General, U.S. Army; Colonel 
      Karl Mostert, Director, Awards and Decorations, U.S. Air 
      Force; James Nierle, president, Board of Decorations & 
      Medals, U.S. Department of Navy; Scott Levins, Director, 
      Military Records, National Personnel Records Center; Joseph 
      Davis, director, public affairs, Veterans of Foreign Wars; 
      and Doug Sterner, curator, Military Times Hall of Valor....     7
        Davis, Joseph............................................    36
        Evans, Colonel Jason.....................................    15
        Hebert, Lernes...........................................     7
        Levins, Scott............................................    28
        Mostert, Colonel Karl....................................    19
        Nierle, James............................................    23
        Sterner, Doug............................................    42
Letters, statements, etc., submitted for the record by:
    Davis, Joseph, director, public affairs, Veterans of Foreign 
      Wars, prepared statement of................................    38
    Evans, Colonel Jason, Adjutant General, U.S. Army, prepared 
      statement of...............................................    17
    Hebert, Lernes, Director, Officer and Enlisted Personnel 
      Management, Office of the Under Secretary of Defense for 
      Personnel and Readiness, U.S. Department of Defense, 
      prepared statement of......................................    10
    Levins, Scott, Director, Military Records, National Personnel 
      Records Center, prepared statement of......................    30
    Mostert, Colonel Karl, Director, Awards and Decorations, U.S. 
      Air Force, prepared statement of...........................    20
    Nierle, James, president, Board of Decorations & Medals, U.S. 
      Department of Navy, prepared statement of..................    25
    Sterner, Doug, curator, Military Times Hall of Valor, 
      prepared statement of......................................    44


           PREVENTING STOLEN VALOR: CHALLENGES AND SOLUTIONS

                              ----------                              


                      WEDNESDAY, FEBRUARY 29, 2012

                  House of Representatives,
Subcommittee on National Security, Homeland Defense 
                            and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 2154, Rayburn House Office Building, Hon. Jason Chaffetz 
(chairman of the subcommittee) presiding.
    Present: Representatives Chaffetz, Platts, Labrador, 
Tierney, Clay, Quigley, and Braley.
    Also present: Representatives Issa and Cummings.
    Staff present: Thomas A. Alexander, senior counsel; Michael 
R. Bebeau, assistant clerk; Adam P. Fromm, director of Member 
services and committee operations; Mitchell S. Kominsky, 
counsel; Sang H. Yi, professional staff member; Nadia A. 
Zahran, staff assistant; Jaron Bourke, minority director of 
administration; Devon Hill, minority staff assistant; Peter 
Kenny and Carlos Uriarte, minority counsel; Paul Kincaid, 
minority press secretary; and Mark Stephenson, minority 
director of legislation.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
Committee Mission Statement.
    We exist to secure two fundamental principles. First, 
Americans have the right to know that the money Washington 
takes from them is well spent. Second, Americans deserve an 
efficient, effective government that works for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers because taxpayers have 
a right to know what they are getting from the government.
    We will work tirelessly in partnership with citizen 
watchdogs to deliver the facts to the American people and bring 
them genuine reform to the Federal bureaucracy. This is the 
mission of the Oversight and Government Reform Committee.
    I want to welcome everyone to this hearing which we have 
entitled Preventing Stolen Valor: Challenges and Solutions. I 
would like to welcome Ranking Member Tierney, members of the 
subcommittees, members of the audience and especially the 
chairman of our full committee, Mr. Issa of California.
    The National Security Subcommittee has a long history of 
overseeing matters affecting the treatment of our troops and 
veterans. Under both Republican and Democratic leadership, 
Members have worked side by side to help ensure the best care 
for our wounded warriors. Last May, we addressed the lengthy 
transition of wounded warriors from the Department of Defense 
to the Department of Veterans Affairs. Today, we will address 
the impact of those who lie about military service for their 
own personal gain. We also looked at whether the Federal 
Government has the ability to track, store and locate personnel 
records and to the extent they are accessible.
    As a Nation, we honor those who wear the uniform and defend 
our freedom. In recognition of their service, we bestow medals 
and citations. Some are awarded on a routine basis such as a 
Good Conduct Medal. Others such as the Congressional Medal of 
Honor and the Distinguished Service Cross are reserved for the 
most heroic acts of sacrifice.
    Sadly, there are some who claim awards even they were not 
earned. According to the VA's Inspector General, there were 78 
arrests from stolen valor investigations between January 1, 
2010 and September 30, 2011. These arrests generated over $10 
million in restitution and roughly $5.4 million in 
administrative savings and recovery of taxpayer dollars.
    In some cases, stolen valor has involved ``renting`` the 
military service of legitimate veterans. The purpose of renting 
is to obtain access to government services and programs 
reserved for truly disabled servicemen. These actions are 
despicable and must be prevented.
    It was recently discovered that a government contractor set 
up a construction company with a disabled veteran as the 
figurehead. This company fraudulently obtained $3.4 million in 
preferential contracts issued by the VA.
    Last year, I was approached by someone claiming to have 
earned the Silver Star, a Distinguished Service Cross and a 
Purple Heart. Shortly after presenting the medals to him at a 
town hall meeting, I learned that he may have falsified his 
paperwork and potentially lied about his awards. My office is 
not alone. As Mr. Sterner will attest, there are more than a 
few Members of Congress who have been publicly victimized.
    Unfortunately, this behavior is not a recent phenomenon. 
Indeed, it has been a problem since our Nation's founding. In 
1782, General George Washington proclaimed, ``Should any who 
are not entitled to these honors have the insolence to assume 
the badges of them, they shall be severely punished.'' As a 
founding father and war hero, he recognized the importance of 
protecting the valor.
    In that same spirit, Congress acted in 2005 to impose fines 
and imprisonment for those who falsely represent themselves. 
The Stolen Valor Act, however, is currently under review by the 
U.S. Supreme Court in U.S. v. Alvarez. While that case is 
certainly open for discussion, its merits are not the focus of 
today's discussion.
    Rather, we will concentrate on the Federal Government's 
effort to track, store and access military records. Do we have 
the proper systems in place? What portion of the overall data 
is digitized and searchable? Are the data easily acceptable to 
those who need to know? Are the Federal Government's efforts 
cost effective? Can we do it faster, cheaper and more 
efficiently?
    I hope that our discussion today will answer these 
questions and bring us closer to finding a solution. Preventing 
stolen valor is critical to preserving the dignity of the 
honors bestowed upon our men and women in uniform.
    We have people who want to employ those who have served in 
our military and done so with honor. I worry that those people 
have no way of verifying whether or not these medals are true. 
I am not talking about some guy trying to impress some girl in 
a bar somewhere. I am talking about someone who legitimately 
wants to hire somebody and all things being equal, wants to do 
it for someone who has served their nation. I worry that there 
is no mechanism to find that out, that it is convoluted at 
best, there isn't the coordination that needs to happen and 
consequently, we have people abusing the system.
    I like what President Ronald Reagan said, ``Trust but 
verify.'' There needs to be a way to go through this 
verification process. That, to me, is the heart of what we are 
trying to do here in this hearing.
    I look forward to hearing from the panel. I appreciate all 
of your efforts: your patriotism, your commitment to this issue 
and your being here.
    Now I would like to recognize the ranking member, the 
former chairman of the full committee, Mr. Tierney from New 
York, for the purpose of an opening statement.
    Mr. Tierney. Thank you, Mr. Chairman, and thanks to all the 
members of this extensive panel I see before us here today.
    The topic of stolen valor is timely and important. In the 
past, Congress has acted to defend recipients of military 
service awards and to punish those who misappropriate the 
honors and prestige of the awards for their own personal, 
professional benefit. The Stolen Valor Act of 2005 makes it a 
crime to falsely represent oneself as a service award recipient 
and provides for jail time up to 1 year depending on the award 
falsely claimed.
    Though the question before us today, as the chairman 
rightly notes, is not whether or not those who commit acts of 
stolen valor should be exposed and punished, instead the 
question this subcommittee should be asking is whether and how 
the Federal Government can do a better job of maintaining and 
assessing service records to verify awards in order to protect 
the public, including Members of Congress, from this type of 
fraud.
    As we assess the scope of this problem of false 
representation of valor and any proposed solution, I think we 
should probably focus on three key points. First, the awards 
verification process must be factually accurate. This means 
that any official response from the Department of Defense must 
rely on official records, must rely on examination of the 
entire record and that any proposed list or data base must be 
comprehensive.
    Second, the awards verification process must be responsive. 
Since the purpose of the system is to help confirm awards of 
valor to the public, I believe the responses must be timely to 
limit the possibility of fraud.
    Last, the awards verification process must be cost 
effective. In this climate of budget cuts and economic 
insecurity, it is important that any system for confirming 
military awards provide the most accurate and timely responses 
at the lowest cost to the taxpayer. To that end, I would just 
note that the National Personnel Records Center contains 60 
million official military personnel records.
    The approximate cost of responding to a personnel records 
request, which can involve the reconstruction of the record, is 
$33 per record. As we look to ways to improve the current 
system, I suggest we start by looking at the Department of 
Defense in a decentralized way that they respond to these 
requests.
    Although the National Personnel Records Center previously 
served as the one stop shop for verifying military personnel 
records, that doesn't seem to be the case anymore. With the 
advent of electronic records systems in the 1990's, the service 
departments began developing their own data bases.
    I think it is instructive that look out at the panel here 
this morning and I see six people from the Services here 
testifying when we probably only need one if we had any kind of 
centralization on this. I think that probably speaks to a lot 
of issues with our military today but we do seem to be 
decentralizing and probably duplicating a lot of activities at 
considerable expense.
    Today, each of the Service departments has a different 
relationship with the National Personnel Records Center which 
leads to different processes and procedures to verify records. 
I would like to hear each of the witnesses tell me why they 
think that is the best way to proceed or if they think we ought 
to change that and how we might go about changing it so we 
don't end up with a situation. We have to determine whether or 
not we can have a more consistent, uniform system that would 
improve both responsiveness and efficiency.
    Last, I want to briefly thank Mr. Sterner for his personal 
contribution. I understand that the data base you have worked 
on has assisted law enforcement in stolen valor investigations 
and even assisted members of the public. I thank you for that.
    I thank all of you for your interest in the topic, thank 
all of you for your testimony here today and I look forward to 
our discussions.
    Mr. Chaffetz. Thank you, Mr. Tierney.
    I will now recognize the chairman of our full committee, 
the gentleman from California, Mr. Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    What we are going to do here today, as both the chairman 
and ranking member pointed out, is going to deal with the 
accuracy and the efficiency of the records so that, in fact, we 
have a better, more consistent and easier to access data base 
for confirmation.
    As a Member of Congress, if I didn't say the name Wes 
Cooley here, I wouldn't be reminding people that we have had 
people who either ran for or got elected to Congress who flat 
lied about their service careers, either exaggerated medals, 
combat service or in fact, didn't serve at all. That is one of 
the problems we have, there is not enough transparency to the 
entire public for honorable service.
    At the risk of being inaccurate, I will carefully say I 
have two honorable discharges and two DD214s. I will say no 
more because, in fact, my service was not special, I was not 
awarded medals for valor. In fact, it is important that all of 
us understand that we bestow well-earned special rights, 
privileges and places of honor on behalf of those who served 
honorably.
    I think this committee has a special obligation. The 
ranking member, in his opening statement, included the word 
efficiency. This committee certainly wants efficiency. If it 
costs $33 or $300 a record to get it right, our choice is get 
it right or dishonor those who served and gave so much.
    Just yesterday, I had the honor of meeting with Dwight 
David Eisenhower's granddaughter, Susan Eisenhower. President 
Eisenhower, one of our very few five-star generals in history, 
President of the United States for 8 years, is buried in a Navy 
Valor coffin with one row of medals by his choice.
    Those who serve honorably, those who serve at the highest 
levels, for the longest time and with the greatest valor, all 
of the above, usually tell less about what they did. They don't 
feel the need to brag in bars about their service in Nam. They 
often don't get enough credit for what they have done.
    This committee takes a special pride and obligation in 
making sure those who don't talk enough and don't exaggerate 
are honored appropriately and never again do we find false 
medals being awarded by Members of Congress, false medals being 
worn by individuals or in fact, people claiming special 
positions for hire or contracting because of a claimed service 
which they did not do and did not earn.
    Mr. Chairman, I think there is no more important hearing we 
will hold than to make sure we hold accountable those who would 
lie about their service and bring such a questionable honor on 
those who do.
    I have no special right to talk on service. My service was 
just mediocre by my own statements. I came, I served, I was 
enlisted and I was fortunate enough to get a college education 
and be commissioned, but I served with an awful lot of great 
people. Some of them are buried at Arlington. All of them gave 
a great deal. They hold a special place in my heart.
    Mr. Chairman, I want to thank you for holding this hearing 
and for national security, including getting it right for our 
veterans.
    I yield back.
    Mr. Chaffetz. Thank you. Thank you for your service.
    To all those who have served, thank you. That is the heart 
of this hearing.
    I would now like to recognize the ranking member of the 
full committee, Mr. Cummings for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I thank you for calling this hearing today to examine the 
problem of fraudulent claims of military service awards and 
decorations. As you know, in 2005, Congress passed the Stolen 
Valor Act to make it a crime for anyone to falsely claim the 
receipt of a congressionally authorized medal or decoration.
    When this legislation was considered in Congress, it passed 
the House unanimously. Although the statute has since been 
challenged in court, I think we can all agree that Congress 
should do everything it can to ensure the integrity of our 
military awards and decorations.
    As we consider potential solutions, I think it is important 
to understand the scope of the problem. For example, in his 
written testimony, Mr. Nierle states that the Department of the 
Navy has received only two requests from law enforcement 
agencies for verification of military awards since 2008. 
Similarly, Mr. Herbert, the Director of Officer and Enlisted 
Personnel Management at the Department of Defense states in his 
testimony that ``limited frequency of such claims helps to 
inform the way forward.''
    I look forward to hearing from the panelists today about 
the scope of the problem so that we can ensure that Congress 
and the Executive respond appropriately.
    Now, I would like to yield to Mr. Clay the balance of my 
time.
    Mr. Clay. I thank the ranking member for yielding.
    Mr. Chairman, I appreciate the opportunity to introduce Mr. 
Levins.
    As St. Louis' Congressman, I am proud to represent the 
National Personnel Records Center. Director Levins and his 
excellent work force of National Archives employees perform 
critically important services. The men and women who have 
served our country in uniform and as Federal civilian workers 
count on Mr. Levins and his staff to fulfill more than 25,000 
requests for records each year. They do so professionally and 
properly while upholding the highest traditions and standards 
of the National Archives.
    I want to say unequivocally that I believe Archivist David 
Ferriero has an exceptional leader in Director Levins. 
Moreover, the Archives employees at NPRC are doing an 
outstanding job and I give them my thanks and thanks to this 
committee and the chairman.
    I yield back.
    Mr. Chaffetz. Thank you.
    Does any other Member wish to make an opening statement? 
Very good.
    Members will have 7 days to submit opening statements for 
the record.
    I will now recognize our panel. I want to make sure I get 
each of your names proper.
    Mr. Hebert is the Director of Officer and Enlisted 
Personnel Management, Office of the Under Secretary of Defense 
for Personnel and Readiness. Colonel Jason Evans is the 
Adjutant General of the U.S. Army. Colonel Karl Mostert is 
Director of Awards and Decorations for the U.S. Air Force. Mr. 
James Nierle is the President, Board of Decorations and Medals, 
Department of Navy. Mr. Scott Levins is Director for Military 
Records at the National Personnel Records Center. Mr. Joseph 
Davis is the director of public affairs for Veterans of Foreign 
Wars. Mr. Doug Sterner is the curator of the Military Times 
Hall of Valor.
    We thank you again for the time and effort of you all being 
here.
    Pursuant to committee rules, all witnesses will be sworn 
before they testify. Please rise and raise your right hands.
    [Witnesses sworn.]
    Mr. Chaffetz. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    In order to allow time for proper discussion, please limit 
your verbal testimony to less than 5 minutes. We have a rather 
large panel and we would like to get to the questioning. We 
will submit your entire statement into the record and if you 
have additional materials you would like to add later, please 
submit those to the committee within 5 days.
    We will now recognize our first witness, Mr. Hebert, for 5 
minutes.

  STATEMENTS OF LERNES HEBERT, DIRECTOR, OFFICER AND ENLISTED 
PERSONNEL MANAGEMENT, OFFICE OF THE UNDER SECRETARY OF DEFENSE 
   FOR PERSONNEL AND READINESS, U.S. DEPARTMENT OF DEFENSE; 
COLONEL JASON EVANS, ADJUTANT GENERAL, U.S. ARMY; COLONEL KARL 
  MOSTERT, DIRECTOR, AWARDS AND DECORATIONS, U.S. AIR FORCE; 
 JAMES NIERLE, PRESIDENT, BOARD OF DECORATIONS & MEDALS, U.S. 
 DEPARTMENT OF NAVY; SCOTT LEVINS, DIRECTOR, MILITARY RECORDS, 
  NATIONAL PERSONNEL RECORDS CENTER; JOSEPH DAVIS, DIRECTOR, 
  PUBLIC AFFAIRS, VETERANS OF FOREIGN WARS; AND DOUG STERNER, 
             CURATOR, MILITARY TIMES HALL OF VALOR

                   STATEMENT OF LERNES HEBERT

    Mr. Hebert. Thank you, Chairman Chaffetz, Mr. Tierney and 
distinguished members of the committee.
    I am honored to come before you this morning to address 
concerns regarding the fabrication of military service records 
and awards by those who fraudulently seek to obtain personal 
and professional benefit and the mechanisms available to verify 
such claims.
    Before I proceed with my formal statement, I would offer to 
you two points. First, I am convinced that everyone in this 
panel and in this committee are equally committed to the 
protection of our veterans and our serving members and equally 
committed to the recognition of their service, valor or not. It 
is that service that makes the Nation what it is.
    As many of us have served, both in the committee and on 
this panel, it is our right and our privilege to protect those 
who follow.
    That being said, although the Department of Defense is not 
responsible for prosecuting criminal offenses under the Stolen 
Valor Act, the military departments do provide verification of 
claims to military decorations and awards based on requests 
from the Department of Justice, the States Attorneys General, 
law enforcement agencies and Members of Congress.
    Each military department does have the authority to 
prosecute and discipline currently serving members who 
fraudulently claim military decorations and awards. While even 
one false claim is too many, the limited frequency of such 
claims does help to inform the way forward.
    Regarding the Department's ability to maintain data bases 
to track and access service records, each military service 
currently maintains digitized official military personnel 
records which include the Certificate of Separation on 
Discharge and documents detailing military decorations and 
awards conferred.
    A limitation of these files is that the conversion began in 
the 1990's and wasn't completed for all services until 2004. 
Official military personnel records that have not been 
digitized are maintained in the National Personnel Records 
Center or National Archives. To enhance access to these digital 
files, the Defense Personnel Records Information Retrieval 
System was launched in 2002, providing a portal through which 
authorized government agencies may access the military 
departments' official military personnel records.
    Some of the agencies that currently have access include the 
Department of Veterans Affairs, the Federal Bureau of 
Investigation, the Department of Homeland Security, the 
Department of Labor and the Federal Aviation Administration. 
Over the past few years, there has been significant increase in 
the use of this system. Last year alone, over three-quarters of 
a million inquiries were fielded.
    This system provides fast and efficient means of verifying 
military decorations and awards with regard to fraudulent 
claims. However, limitations inherent in such an automated 
system don't allow us to determine the purpose for which the 
inquiry was done, whether it was to verify awards or 
decorations or to verify employment or service because the 
scope of the information provided in the system is so broad, it 
allows law enforcement agencies to verify a broad variety of 
questions that might come up.
    While the Defense Personnel Records Information Retrieval 
System provides access to digital files, each military service, 
along with the National Personnel Records Center, must 
individually process requests for verification of military 
decorations for service members whose records only exist on 
paper or microfiche.
    Regardless of the age or type of record being verified, 
each military department provides priority responses to 
requests from law enforcement organizations or Members of 
Congress. Naturally, verification of paper and microfiche 
records is more time consuming as these records must be located 
and manually reviewed to determine decorations and awards 
conferred.
    Verification of these records is not always definitive. 
There was a fire at the National Personnel Records Center in 
1973 that destroyed approximately 16-18 million Army and Air 
Force records.
    Although the military departments receive many requests for 
verification of military decorations, very few of these 
requests have been identified as specifically tied to 
fraudulent awards with regard to the Stolen Valor Act.
    The Department's ``Report to the Senate and House Armed 
Services Committees on a Searchable Military Valor Decorations 
Data base,'' in March 2009 details the issues associated with 
making this information public. The Department determined that 
the utility of a publicly accessible data base is limited by 
the need to protect personal privacy and the lack of a means to 
account for all decorations. The omission of even one 
individual from this data base can inadvertently harm a 
veteran, the same person it was designed to protect.
    The Department concluded that protection of the individual 
was paramount and therefore, opted to use tiered levels of 
review and the government accessible data base I have 
described. While only more recent records benefit from current 
technology, the alternative would require digital conversion of 
up to 60 million service members' personnel records at a 
substantial cost. Given the limited number of inquiries the 
Department receives each year, allowing records professionals 
to verify older records on a case by case basis has proven to 
be an effective process.
    That is not to say there is not room for improvement. The 
Department recognizes every system we have has room for 
improvement with regard to efficiency and effectiveness.
    Each witness here today will further address their 
respective organization's decorations and awards process.
    I thank you for the opportunity to come before you today 
and for your continued support of our military members and 
their families.
    [The prepared statement of Mr. Hebert follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.001
    
    [GRAPHIC] [TIFF OMITTED] 74036.002
    
    [GRAPHIC] [TIFF OMITTED] 74036.003
    
    [GRAPHIC] [TIFF OMITTED] 74036.004
    
    [GRAPHIC] [TIFF OMITTED] 74036.005
    
    Mr. Chaffetz. Thank you.
    Colonel Evans.

                STATEMENT OF COLONEL JASON EVANS

    Colonel Evans. Chairman Chaffetz, Representative Tierney 
and distinguished members of the subcommittee, thank you for 
providing me the opportunity to appear before you on behalf of 
America's Army.
    It is a privilege to be here today to present our system of 
military awards to you. The Awards and Decorations Branch is 
the centerpiece of the Army's Military Awards Program. Our 
awards system recognizes distinguished acts of valor and 
bravery for our soldiers and when needed, supports internal and 
external agencies with verifying cases of possible fraudulent 
awards.
    There is no greater act of heroism than serving this great 
country in uniform and there should never be a time when a 
member's service is compromised by those who misrepresent their 
service to this great Nation and fraudulently receive awards. 
In that, we make it a priority to support agencies who request 
our support and expertise to verify awards for those suspected 
of and charged with making fraudulent award claims.
    The Army uses multiple data bases and a systemic process to 
protect the integrity of our awards system and to verify awards 
information on its soldiers, past and present. The Army 
verifies a soldier's awards record through internal personnel 
data bases, official military record files, microfiche and 
other historical and records cache resources which require 
research and analysis.
    At the request of internal and external agencies, we use 
all those systems and have been able to support or deny 
suspected fraudulent award claims. Upon receipt of a request, 
we make it a priority to conduct thorough research and analysis 
and provide timely feedback to the requesting agency.
    A soldier's personnel service record impacts the timeliness 
of our feedback. In many cases, for a soldier who served during 
a past conflict, we request the soldier's personnel records 
from the National Personnel Records Center to assist in the 
process of validating approved awards. When validating award 
requests, the Army takes great care not to deny a valor award 
solely based on the omission of records.
    Record losses stemmed from the 1973 fire at the National 
Personnel Records Center, additionally, errors may have been 
made in recording the award or records have been lost entirely 
through no fault of the soldier. The Army will exhaust all 
available resources before stating we cannot confirm an 
individual was not awarded a valor award. This process may take 
6 months or more.
    We routinely assist the Inspector General, the Federal 
Bureau of Investigation, judge advocates, as well as the Army 
Board of Correction of Military Records, Veterans Affairs, 
congressional Members and Army units. Over the past 3 years, we 
are aware of less than 20 fraudulent cases. In each case, we 
have assisted in providing valuable information to these 
organizations which prompted the need for further investigation 
or prosecution by the appropriate authorities.
    While service organizations play a critical role in 
assisting veterans to receive retroactive awards, we are aware 
there are illegitimate, on-line services which claim to provide 
Army awards and decorations. However, those illegitimate, on-
line resources are not supported by the Army as a reliable 
resource to validate award information and issue reproduction 
certificates.
    The Army awards system contains numerous checks and 
balances which include endorsements from various levels of the 
chain of command and human resources elements for ensuring the 
appropriate level of recognition is warranted for each soldier.
    We will continue supporting all legitimate agencies to 
protect the integrity of the Military Awards Program for our 
men and women who honorably serve this nation.
    Once again, thank you for the opportunity to appear before 
you today. I look forward to answering your questions.
    [The prepared statement of Colonel Evans follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.006
    
    [GRAPHIC] [TIFF OMITTED] 74036.007
    
    Mr. Chaffetz. Thank you.
    Colonel Mostert.

               STATEMENT OF COLONEL KARL MOSTERT

    Colonel Mostert. Chairman Chaffetz, Ranking Member Tierney 
and distinguished members of the subcommittee, I thank you for 
the opportunity to appear before you today representing the men 
and women of the U.S. Air Force. We appreciate your leadership 
and continued support of our Airmen and their families.
    We have many Airmen who go above and beyond the call of 
duty while performing their duties. We recognize these 
individuals with military awards and decorations. By their 
unwavering actions, they have earned the right to wear these 
awards and decorations and to wear them proudly.
    Unfortunately, there are occasions where current or former 
military members or those who claim to be former military 
members, fraudulently assert to have earned awards for valor. 
This action has the potential to degrade the value of our 
military recognition program. The Air Force takes this matter 
very seriously. All awards and decorations earned by an Airman 
are included in, and can be verified, through their official 
military personnel record.
    When our Department receives a request for award 
verification from Congress, through the Secretary of the Air 
Force's Legislative Liaison Office or from law enforcement 
agencies, our Air Force Personnel Center conducts research and 
provides validated results. If the person being researched is 
an active duty Airman or one who separated from the Service 
during or after October 2004, we can quickly ascertain the 
reported recognition by retrieving their electronic record in 
our Military Personnel Data base System which began operation 
in October 2004.
    However, if the person is not on active duty or separated 
from the Service prior to October 2004, we must send a record 
request to the National Personnel Records Center in St. Louis, 
Missouri, a process which takes on average about 60 days to 
complete. The Air Force receives a few hundred award 
verification requests per year. We verify those that are valid, 
constituting about 95 percent of the requests and identify 
those that are either lacking documentation or are unconfirmed, 
about 4.9 percent, or suspected to be fraudulent, about .1 
percent, constituting two cases over the past 2 years.
    We take fraudulent matters very seriously. As an example, 
in early 2011, we expedited a personnel records review for an 
investigator from the Department of Treasury. He sought to 
validate an employee's claim of being a Purple Heart recipient. 
We were able to provide information in a few days enabling the 
Department of Treasury to address the issue from an informed 
position.
    Mr. Chairman, to conclude, I again thank you and the 
committee for the opportunity to be here today to discuss this 
serious matter. We look forward to working with the committee 
and answering your questions.
    [The prepared statement of Colonel Mostert follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.008
    
    [GRAPHIC] [TIFF OMITTED] 74036.009
    
    [GRAPHIC] [TIFF OMITTED] 74036.010
    
    Mr. Chaffetz. Thank you.
    Mr. Nierle.

                   STATEMENT OF JAMES NIERLE

    Mr. Nierle. Good morning, Chairman Chaffetz, Ranking Member 
Tierney and other distinguished members of the subcommittee.
    I am honored to be able to testify this morning about the 
awards process within the Department of the Navy and the 
procedures we use to verify awards received by members of the 
Naval service.
    The integrity of the process by which our valor decorations 
and medals is approved is vital to maintaining the high esteem 
in which these awards are held. The fundamental aspects of our 
awards process are time tested and have not changed 
significantly since World War II.
    Recommendation for an award for a valor medal may be 
initiated by a commissioned officer who has knowledge of the 
facts who is senior to the individual being recommended. No 
person may recommend himself or herself for an award. The 
recommending officer completes and signs the award form which 
includes a narrative and is supported by the statements of eye 
witnesses. The award recommendation is then forwarded up the 
chain of command to the person who has the authority to approve 
or disapprove the award.
    There are also well defined and longstanding procedures in 
existence for recommendations of veterans of past conflicts for 
valor awards and for the reconsideration and upgrade of 
previously awarded decorations.
    Although the basic process has not changed significantly 
since World War II, the technology in use within the award 
system has evolved. From World War II through post-Vietnam, 
award recommendations were processed and recorded as hard copy 
documents. Since 2003, the Marine Corps is utilizing a Web-
based, paperless system. Although the Navy continues to use 
paper recommendations and approvals for awards, the Navy does 
maintain a Web-based searchable data base that contains data 
for awards that go back to 1963.
    Our awards branch staffs have ready access to various other 
awards records covering World War II and later. None of these 
collections is exhaustive.
    For all periods of service during and after World War II, 
the most authoritative source for verification of awards is the 
individual service member's Official Military Personnel File. 
OMPFs for Navy and Marine Corps personnel in active service, 
and those who left the service since the late 1990's, are in 
electronic digital form maintained by the personnel branches of 
the Services. OMPFs from earlier periods are maintained by the 
National Personnel Records Center in St. Louis.
    The Department of Navy gives priority support to law 
enforcement agencies investigating fraudulent award claims. 
Fewer than five of these requests from law enforcement agencies 
for verification of military awards have been received at the 
Department headquarters since 2008. During that same period, a 
small number of verification requests were also received from 
Members of Congress, the media and the Department of Veterans 
Affairs.
    However, it is important to note that law enforcement 
agencies and other Federal agencies do have access to recent 
OMPFs through the Defense Personnel Records Information 
Retrieval System [DPRIRS] and it is impossible to know how many 
of those accesses through that system were used to investigate 
fraudulent claims.
    When responding to an award verification request, we are 
careful to caution that our inability to locate an official 
record of a particular award is not in and of itself proof that 
this award was never made or is not valid. It is possible the 
award or the person claiming to have received the award has in 
his or her possession some authentic documentation of that 
award.
    It is also possible an error was made in recording the 
award or the pertinent record was destroyed or cannot be 
located. When no official record of an award can be found, the 
Department of the Navy is bound by the presumption of 
regularity and must conclude that the award in question was 
never approved. Clear and authentic evidence must be presented 
to overcome this presumption.
    Again, I thank you for the opportunity to appear before the 
committee.
    [The prepared statement of Mr. Nierle follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.011
    
    [GRAPHIC] [TIFF OMITTED] 74036.012
    
    [GRAPHIC] [TIFF OMITTED] 74036.013
    
    Mr. Chaffetz. Thank you.
    Mr. Levins, you are recognized for 5 minutes.

                   STATEMENT OF SCOTT LEVINS

    Mr. Levins. I would like to thank Congressman Clay for the 
kind introduction.
    Good morning, Chairman Chaffetz, Ranking Member Tierney and 
members of the subcommittee.
    Thank you for calling this hearing and for your attention 
to issues surrounding the management of records which document 
the service of our Nation's veterans.
    I am proud to represent the staff of the National Personnel 
Records Center, many of whom are veterans themselves. I am 
pleased to appear before you today to discuss the work the 
Center does to serve those who have served.
    The National Personnel Records Center is an office of the 
National Archives and Records Administration. Located in 
multiple facilities in the St. Louis area, the Center stores 
and services over 4 million cubic feet of military and civilian 
personnel, medical and related records dating back to the 
Spanish American War.
    In the year 2000, Congress provided NARA with a revolving 
fund that allows NARA's Records Center Program, including the 
National Personnel Records Center, to function on a cost 
reimbursable basis. Accordingly, NPRC no longer receives annual 
appropriations for its Records Center Program and instead, 
charges each agency the full cost of servicing their records.
    In the mid-1950's, the Department of Defense constructed 
the Military Personnel Records Center in Overland, Missouri. In 
1960, the Center's functions were consolidated and transferred 
to the General Services Administration to be managed by the 
NARA's predecessor agency, the National Archives and Records 
Service as a single program leveraging economies of scale to 
improve efficiency and offering a central point of access for 
military service records.
    When the Military Personnel Records Center was constructed 
in the 1950's, it was not equipped with a fire suppression 
system. In 1973, a massive fire at the Center destroyed 1618 
million records documenting military service of Army and Air 
Force veterans who separated between 1912 and 1964. Though the 
fire occurred almost 40 years ago, the Center continues to 
service approximately 200,000 requests per year which pertain 
to records lost in that fire. Though the Center is normally 
able to reconstruct basic service data, it is often impossible 
to reconstruct complete records of awards and decorations.
    Today, NPRC holds approximately 60 million official 
military personnel files. Its holdings also include service 
treatment records, clinical records from military medical 
treatment facilities, auxiliary records such as pay vouchers 
and service name indexes and organizational records such as 
morning reports and unit rosters. NPRC stores these records in 
both textual and micrographic formats.
    NPRC's military records facility receives between 4,000-
5,000 correspondence requests each day from veterans, their 
next of kin, Federal agencies, Members of Congress, the media 
and other stakeholders and responds to 74 percent of these 
requests in 10 business days or less. Nearly half of these 
requests come from veterans seeking a copy of their separation 
statement because they need it to pursue a benefit. The Center 
responds to 93 percent of these types of requests in 10 
business days or less.
    Regarding requests for military awards and decorations, 
NPRC does not issue service medals. However, for cases 
involving Air Force and Army veterans, the NPRC staff review 
the records, find the awards listed, send a response back to 
the veteran listing the awards and initiate an order with the 
Army or the Air Force to have the actual awards mailed to the 
veteran. For veterans of the Navy, Marine Corps and Coast 
Guard, the requests are referred for action to a Navy office 
which is co-located in the same facility. During fiscal year 
2011, NPRC responded to approximately 67,000 requests for 
military awards and decorations which represented 6 percent of 
its overall correspondence volume.
    NPRC also responds to Freedom of Information Act requests 
for records of all the military services. During fiscal year 
2011, NPRC responded to over 16,000 FOIA requests and responded 
to 98 percent of them in 20 days or less. Some of these 
requests come from interested third parties wishing to verify a 
veteran's awards and decorations and we are able to release 
that information about awards and decorations earned while in 
service.
    Despite the original idea in 1960 for NPRC to serve as a 
central repository for information needed to verify rights and 
benefits of veterans, beginning in the early 1990's, the 
military service departments stopped retiring medical records, 
now called service treatment records, to NPRC and instead, 
retired them directly to the VA. As a result, the NPRC does not 
have direct access to modern service treatment records.
    From the late 1990's and the early 2000's with the 
exception of the Coast Guard, the military service departments 
also stopped retiring official military personnel files to MPRC 
and instead, retain them in-house in electronic formats. The 
military services use their electronic personnel records 
systems to respond to routine correspondence requests from 
veterans and other stakeholders. With the exception of the 
Department of the Army, the NPRC refers correspondence requests 
for these records to the appropriate military department for 
servicing.
    In 2007, the Department of the Army entered into an 
agreement with NARA to allow NPRC to access its electronic 
personnel records for the purpose of responding to routine 
correspondence requests. The Air Force, Navy and Marine Corps 
continue to service their own personnel records and respond to 
routine correspondence requests from veterans and other 
stakeholders.
    NARA is eager to work with the subcommittee and other 
stakeholders to explore opportunities to better serve our 
Nation's veterans. We invite the subcommittee members to visit 
NPRC. We welcome suggestions to improve service and efficiency 
and again, extend our sincere thanks to the subcommittee for 
expressing great interest in the services provided by NPRC.
    [The prepared statement of Mr. Levins follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.014
    
    [GRAPHIC] [TIFF OMITTED] 74036.015
    
    [GRAPHIC] [TIFF OMITTED] 74036.016
    
    [GRAPHIC] [TIFF OMITTED] 74036.017
    
    [GRAPHIC] [TIFF OMITTED] 74036.018
    
    [GRAPHIC] [TIFF OMITTED] 74036.019
    
    Mr. Chaffetz. Thank you.
    Mr. Davis, you are now recognized for 5 minutes.

                   STATEMENT OF JOSEPH DAVIS

    Mr. Davis. Thank you, sir.
    Chairman Chaffetz, Ranking Member Tierney and members of 
the subcommittee, thank you on behalf of the 2 million members 
of the Veterans of Foreign Wars for having this hearing today.
    One of the greatest threats to small unit morale is the 
barracks thief. It is an egregious violation of personal space, 
property and trust, plus it sows seeds of suspicion among those 
who must depend upon each other to fight, win and survive our 
Nation's battles. Upon discovery, the thief is dealt with 
severely, principally on charges of Article 122 of the Uniform 
Code of Military Justice.
    America's wars past and present have produced thousands of 
true heroes who have been properly recognized for their 
selfless service and bravery, and untold more whose heroic 
actions died with them in battle. For those few who survived, 
and to the memories of those who did not, the Stolen Valor Act 
of 2005 was enacted to protect them against barracks thieves 
who would seek public acclaim and personal gain during an era 
of tremendous public respect for the military.
    The VFW is a lead co-signer of the amicus brief to ask the 
U.S. Supreme Court to uphold the Stolen Valor Act. This law 
must be upheld and all punishments must be swift, severe and 
public to the maximum extent to deter others from stealing 
other peoples valor.
    The constitutional issue of the Supreme Court is not the 
purpose of this hearing. We do ask the committee to use this 
opportunity to require the military services to better document 
military wars for verification purposes. All military 
decorations are government-issued, yet there is no government-
run, searchable military data base that catalogs the awards. 
Instead, this function has been ceded almost entirely to non-
government entities that may or may not have access to complete 
lists, if such lists exist at all.
    The Civilian Enterprise Military Hall of Valor is the 
unofficial records keeper and its founders and chief 
researchers, Doug and Pam Sterner of Alexandria, Virginia, are 
recognized experts for verifying recipients of the military's 
top medals for valor and for helping to expose fraud. The Hall 
of Valor lists almost 100,000 medal recipients to include all 
the Medal of Honor recipients and virtually all the 
Distinguished Service Cross, Navy Cross and Air Force Cross 
recipients. It also lists over 24,400 recipients of the Silver 
Star, which is our Nation's third highest medal for valor.
    A civilian entity with limited resources, limited manpower 
and budget has accomplished all this through open source 
documents, FOIA requests and most of all, perseverance and Hall 
of Valor has done it with an extremely high degree of accuracy. 
The question begs why the hasn't military taken the initiative 
to properly document for prosperity the medals they issue. 
Preserving military heritage demands an electronic 
recordkeeping of more than just who was the chief commander of 
the military service, a Navy ship or an Army division.
    It demands an official and verifiable record of battle 
maneuvers and of the units involved. More so, it demands that 
those service men and women who excelled under fire be 
recognized and entered into the permanent history of that 
service. A searchable data base is the only responsible way to 
properly document the medals the military issues and would also 
help the Department of Veterans Affairs and their mission to 
provide health care, disability compensation and burial 
benefits to our eligible veterans.
    The military must take better ownership of their personnel 
recordkeeping and do everything possible to eliminate the hole 
in personnel service records such as when a medal is not 
processed or approved until long after the service member has 
separated or retired or in some cases, died. A co-worker here 
in the VFW Washington office learned he was awarded a Bronze 
Star for service meritory in Iraq during 2004. He has a copy of 
his medal certificate and orders but for almost 7 years has 
been unsuccessful in tracking down the original document to 
correct his DD-214. A reply earlier this month from the Army 
Human Resources Command basically said our records on you might 
be a little incomplete.
    Mr. Chairman, if this 30-year-old, Iraqi veteran who is 
immersed in the ways of the government bureaucracy because of 
his position here in Washington, DC, can't get his records 
corrected, how difficult must it be for hundreds of thousands 
of other veterans from other services and other generations. It 
is virtually impossible. Computers have made things faster, but 
computers have not made the military personnel system any 
better.
    Perhaps it is because the military focuses too much on 
recruiting and retention and not on the high quality of people 
they return to civilian society after 4 or 40 years of faithful 
service. Regardless, there is absolutely no excuse in the year 
2012 that the entire military personnel system cannot 
immediately find and correct errors and omissions on military 
service records.
    Mr. Chairman, the civilian public's disconnect with the 
military is already huge. The Veterans of Foreign Wars asks for 
your help to not allow the military to exacerbate its own 
disconnect with their own service members, their veterans and 
their retirees. Those who serve our Nation in uniform deserve 
so much better.
    Thank you.
    [The prepared statement of Mr. Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.020
    
    [GRAPHIC] [TIFF OMITTED] 74036.021
    
    [GRAPHIC] [TIFF OMITTED] 74036.022
    
    [GRAPHIC] [TIFF OMITTED] 74036.023
    
    Mr. Chaffetz. Thank you, Mr. Davis.
    Mr. Sterner, you are now recognized for 5 minutes.

                   STATEMENT OF DOUG STERNER

    Mr. Sterner. Mr. Chairman, Ranking Member Tierney and 
members of the subcommittee, thank you for the opportunity to 
testify today.
    I would like to begin by acknowledging my wife, Pam, who in 
2004 authored the Stolen Valor Act. I would also like to pay 
tribute to Chuck Schantag, a Vietnam War Marine, Purple Heart 
recipient who passed away unexpectedly last Thursday. He and 
his wife, Mary, have been at the forefront of exposing stolen 
valor for decades.
    Last week, the U.S. Supreme Court heard arguments in a case 
in which a man falsely claimed to be a Medal of Honor 
recipient. His conviction was overturned by the Ninth Circuit 
Court that said he was exercising his right of free speech. 
Such cases are rampant, resulting in great cost to the 
government. Eight men charged in Seattle cost the VA $1.4 
million. None had ever been in combat, two had never been in 
the military.
    While I hope that the Supreme Court fails to find merit in 
the decision of the Ninth Circuit Court, I would agree with 
them on one point. They said, ``Preserving the value of 
military decorations is unquestionably an appropriate and 
worthy governmental objective that Congress may achieve through 
publicizing the names of legitimate recipients.''
    When George Washington established our awards system in 
1782, he said the fakers should be punished but he also said 
``The name and regiment of the person so certified are to be 
enrolled in the Book of Merit which will be kept at the Orderly 
Office.'' This was the first call for a data base of our awards 
but presently there exists no Book of Merit other than a data 
base of Medal of Honor recipients.
    In 2009, the Dallas Morning Herald reported that 14 of 67 
issued Legion of Valor license plates were bogus. They wrote, 
``Officials say it is hard to actually verify an individual's 
claim even with documents. Without a data base, we are 
hamstrung.'' I can detail cases of stolen valor for hours. It 
would become redundant, but there is another point I want to 
make and that is the way our real heroes are being robbed on a 
daily basis for lack of proper recordkeeping by our government.
    Twelve years ago, after watching ``Saving Private Ryan,'' 
Monty McDaniel decided to research his uncle who was killed in 
the Normandy Invasion. He found he uncle may have been awarded 
the Distinguished Service Cross but there was no record of that 
in the family. He searched and he found the evidence not only 
of his uncle but the man whose citation followed him killed in 
action and his family did not know of that award. In 2001, both 
of these heroes were finally awarded their posthumous 
Distinguished Service Crosses, the parents of both men died in 
the 1990's, never knowing of their great heroism and award of 
their dead sons.
    In 2007, I received an email from Jan Girando whose father 
was one of fewer than 4,000 recipients of the Navy Cross in 
World War II. By the way, Jan flew in all the way from Kansas 
yesterday to be here. This is that important to her. Jan was 
trying to get her father buried at Arlington but the Navy, for 
its part, couldn't even find a record that he had served on 
active duty. She emailed me, I verified the award and she 
notes, ``Six days later, I was informed that Arlington had 
ordered my father's marker'' and made my week because that is 
what this is about.
    The closest thing to any kind of data base that the Army 
has is an enumeration of awards, no names, published by Army 
Human Resources Command. They show that 848 Distinguished 
Service Crosses were awarded in the Vietnam War. The Military 
Times ``Hall of Valor'' has the citations for 1,068. That is 
220 of the most decorated heroes of the war I served in that 
are otherwise lost to history.
    The problem of lost heroes hasn't improved with technology. 
The Baltimore Sun reported, The Army denied a March 2006 
Freedom of Information Act request for the narratives of Silver 
Stars first on the grounds that it couldn't find them all.'' In 
fact, I personally FOIA'd for the Silver Stars awarded to 24 
men killed in the wars in Iraq and Afghanistan. I tell you, 
Scott does a great job but he can only send me what he has, 22 
of those 24 came back from St. Louis no record of that GWAT 
veteran getting the Silver Star.
    I hope to demonstrate to you today that a data base of 
awards is an achievable goal and a worthy one not only to serve 
as a tool to thwart acts of stolen valor and fraud against our 
government, but as a noble effort to preserve for prosperity 
the great service, sacrifice and valor of America's veteran. We 
owe them much and the very least we owe them is to keep an 
accurate record of their deeds.
    As Medal of Honor recipient William A. Jones wrote shortly 
before his death in 1969, ``Poor is a nation that has no 
heroes, but begger that nation that has and forgets them.''
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sterner follows:]
    [GRAPHIC] [TIFF OMITTED] 74036.024
    
    [GRAPHIC] [TIFF OMITTED] 74036.025
    
    [GRAPHIC] [TIFF OMITTED] 74036.026
    
    Mr. Chaffetz. Thank you, gentlemen.
    We are now going to move to questions and I recognize 
myself for 5 minutes.
    You heard Mr. Davis and Mr. Sterner, you five gentlemen. I 
have no doubt about your patriotism, your commitment to your 
job, your country or anything else. I heard you all give 
testimony about where we are today but I didn't hear a whole 
lot about what we really should be doing.
    My guess is in your heart of hearts and your expertise, you 
know what is wrong with this system. The committee wants to 
know what is wrong, what should be fixed and what should we do 
about it. Any of the five of you who could respond to Mr. Davis 
and Mr. Sterner, I would appreciate it. Mr. Hebert.
    Mr. Hebert. Thank you, Mr. Chairman.
    Admittedly, any system as massive as the Department of 
Defense's personnel systems requires constant and vigilant 
improvement. Such improvement was made in 2002 when we 
introduced the accessible data base through the Defense 
Personnel Records Information Retrieval System. Imagine as a 
veteran, I, myself, in preparation for this hearing, went to 
the VA Web site, logged on and within a matter of minutes was 
presented with an email back in my account that my records were 
available.
    By trade, I was in the personnel community when I was in 
uniform, so I was pretty familiar with my own personnel 
records. Surprising to me that I had 130 pages of documents 
some of which I had never seen before that were filed and 
digitized and immediately accessible to me as a veteran.
    Mr. Chaffetz. Are you advocating that we have one data 
base?
    Mr. Hebert. I am advocating that we have advanced beyond 
the structure of a single data base.
    Mr. Chaffetz. So you are advocating that we have multiple 
data bases?
    Mr. Hebert. I am advocating that the system we have in 
place now has inherited advantages over a single data base. Let 
me explain.
    Any data base itself has to reference a source document or 
a source record. If you create a redundancy within your system, 
your data base is only as accurate as your last refresh, the 
last time you went back and sought to update your records. What 
the Department has created instead is a single portal that 
reaches back to the individual's service source records so 
there is no redundancy, there is no update or refresh time. It 
is accessing the same record that the personnel clerk would.
    Mr. Chaffetz. I have to catch up here a little bit. If we 
can go to that first slide, I want to show you that this the 
form you are supposed to fill out. I don't know if we can get 
to the bottom part of that. Maybe it is slide two. You are 
having a hard time seeing that on the monitor but what that 
says this is the address list of custodians. Essentially, there 
are 14 different areas in which you can go. You have to do this 
chart and connect the numbers. It seems like a very convoluted 
way of doing things. The inaccuracy or incomplete nature of 
these records is what is so troublesome.
    Take for a moment that I am some company out there in Idaho 
and I have somebody come to me and they are applying for a job. 
Being a patriotic employer, all things being equal, I want to 
hire the veteran, even though he may be disabled, maybe earned 
a Purple Heart, and I want to hire that person. How do I, as an 
employer, verify that he is telling the truth? I want to 
believe everybody is telling the truth, but the reality is, 
unfortunately, they are not. It goes back to the Reagan mantra 
of trust but verify.
    Mr. Hebert. Yes, sir.
    Mr. Chaffetz. What do I do?
    Mr. Hebert. You have hit upon the one area where you were 
asking where the system could be improved. In preparation for 
this hearing, my panelists and I all did extensive research. 
One of the gaps, if you will, is that we don't display in a 
layman's simple format, how you access these records if you are 
not a veteran.
    If you are a veteran, going to the VA Web site, it is very 
intuitive and that sort of thing but if you are an employer, 
without knowledge of the Department of Defense, without 
knowledge of our internal systems, how do you get to it? 
Clearly that is an area that we are lacking and as a 
Department, we are going to move forward to make sure there is 
a very clear, single point of entry that delineates exactly how 
you access records, whether the individual is a veteran or a 
former veteran or a currently serving member, or whether the 
individual, regardless of service, you can come to this one 
stop shop to gain access to these records.
    Mr. Chaffetz. My time has expired but very quickly, Mr. 
Levins, a few more stats if you will. I know you don't take 
appropriations but how much money is flowing in and out of your 
organization? How many personnel do you have in place to 
execute your mission and what you are doing at your office?
    Mr. Levins. We have about 900 employees in St. Louis, but 
about half of them are student temps, part-time employees, and 
many of them work on issues involving the civilian facility not 
the military facility.
    To store the records in the appropriate environment, the 
military records and provide reference service on them is about 
a $15 million a year program.
    Mr. Chaffetz. Thank you.
    In the essence of time, I will now recognize Ranking Member 
Tierney for 5 minutes.
    Mr. Tierney. Thank you.
    Mr. Hebert, let me ask, have you used the services, outside 
advice or counsel from people in private industry who might be 
involved with data bases and computer systems and sought their 
input into how you might better do your jobs?
    Mr. Hebert. No, I have not, sir.
    Mr. Tierney. Colonel.
    Colonel Evans. Sir, not that I am aware of.
    Mr. Tierney. Colonel.
    Colonel Mostert. Sir, in the development of the data base 
systems that we do presently use, that was done with the 
assistance of advisors, subject matter experts on building data 
bases.
    Mr. Tierney. Mr. Nierle.
    Mr. Nierle. Yes, Mr. Tierney, in the same way in the 
development of our current systems, the Improved Awards 
Processing System for the Marine Corps, a completely paperless 
system which came online in 2001 and is still in use, is 
contracted out. Also, in the Navy, we also have the Navy 
Department Awards Web service which is another data base. Of 
course we have people under contract to continually improve 
those systems.
    Mr. Tierney. Do the five of you from Mr. Hebert to Mr. 
Levins all join in the contention that having service-based 
systems are better than having one system, individual processes 
in each department or each Service? Mr. Hebert, we know you 
think that is a good idea. Colonel Evans?
    Colonel Evans. Yes, sir, I think the data base we currently 
have now and the ability of the Defense Records Information 
Retrieval System that NPRC uses, the National Personnel Records 
System, is sufficient.
    Mr. Tierney. Colonel Mostert.
    Colonel Mostert. Yes, sir, the records system that we have 
serves our needs and with DPRIS, we are able to provide 
information that is accessible outside of us. That is the entry 
point for outside agencies to access our information as well as 
the other information.
    Mr. Tierney. Mr. Nierle.
    Mr. Nierle. Yes, Mr. Tierney, I do agree. Our systems were 
developed specifically for the way our forces are deployed 
around the world, the command structures that we employ within 
our Services and I think they do work better as separate 
systems because they are complete systems. They are not simply 
recordkeeping and data bases for lookups.
    Mr. Tierney. Mr. Levins, do you think that should change or 
do you think it is fine the way it is?
    Mr. Levins. I could only hazard a guess at how complex it 
might be to merge all the different systems together, but DoD 
has had great success in DPRIS which is a portal which will 
speak to each of those systems. I think the benefit could come 
from revisiting the issue of one stop shopping for veterans' 
records. Right now, our technicians are credentialed to use 
DPRIS and they are proficient at using DPRIS to access Army 
records, but they can't use the system to access records of the 
other Service departments.
    When a potential employer writes to us for employment 
verification of a modern veteran who just got out of the Air 
Force, for example, we can't respond to that request if we 
don't have the record. We have to refer that to the Air Force. 
I think DPRIS could be further leveraged to create that one 
stop shop.
    I think DPRIS provides great benefits to the veteran 
himself because there is the opportunity for self service but 
when it comes to third parties like potential employers, there 
is a lot of personal data in those records and not all of that 
personal data pertains to the veteran. It often pertains to 
other members of the military and it is not releasable. That 
needs to be carefully thought about as well. The character of 
service is not something that is releasable under the Freedom 
of Information Act.
    Mr. Tierney. Who would be responsible for taking the lead 
and making those kinds of changes, Mr. Levins?
    Mr. Levins. The Department of Defense, I would imagine.
    Mr. Tierney. Mr. Hebert, would that fall under you or are 
we missing somebody here?
    Mr. Hebert. We are missing somebody here, sir. Basically, 
it is the individual Service's responsibility. Under statute, 
they are required to organize, train and equip. This is part of 
that function, the recordkeeping function, of the personnel 
records, personnel records being much more than just a 
reporting of history. It is an integral part of how individuals 
are developed, assigned and processed throughout their career.
    Mr. Tierney. Who do we need at the table to try to look at 
and evaluate the recommendation Mr. Levins just made?
    Mr. Hebert. I will take it for action to go back and meet 
with the Services to discuss it further to determine whether or 
not there is viability in adopting an Army model, if you will, 
for the other Services.
    Mr. Tierney. I wonder if we have the whole Joint Chiefs of 
Staff thing going on here. It doesn't seem to be working all 
that well in terms of coordination, does it?
    Mr. Davis and Mr. Sterner, correct me if I am wrong, you 
each thought it would be important to have a list of recipients 
of a particular medal, who received it and when and particulars 
about it. Was that one of the points you raised, Mr. Sterner?
    Mr. Sterner. That is my hot button, the awards. I think 
that is so critical. On the other hand, you are talking about a 
data base for immediately betting whether or not someone is a 
veteran who qualifies for a veteran's preference, I would like 
to point to a 2004 study done by NPRC looking into the 
feasibility of digitizing awards.
    In that study, they found it would be impractical to 
digitize everything but reading from the executive summary from 
that, ``Digitizing the key military separation document, the 
DD-214,'' that is what you are looking for, Mr. Chairman, ``in 
every post-1947 file will yield a $4 million annual return on 
an $11.9 million investment.'' There is your data base done by 
NARA.
    The problem with it is, of course, it is going to be 
incomplete because of the 1973 fire. The awards data base that 
I am calling for would fill in many of those gaps and would be 
a very, very complete system. With the system we have now in 
place, merging it all together would give you what you want and 
also give us that awards data base.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. I recognize Mr. Braley for 5 minutes.
    Mr. Braley. I want to thank the chairman and I want to 
apologize to our distinguished panelists. I was actually at 
Walter Reed this morning talking to a young Marine from my 
district who had both of his legs blown off in Afghanistan and 
is back for revision surgery. That and another event that is 
coming up in 10 days which has been on my bucket list for a 
long time have really put this whole hearing in perspective for 
me.
    Mr. Sterner, you mentioned Saving Private Ryan in your 
opening remarks and the fictional character, Private Ryan, was 
from Peyton, Iowa. I live in Waterloo, Iowa where the five 
Sullivan brothers grew up. These are not abstract principles to 
us. In fact, when Ken Burns came out with his classic 
documentary on World War II, I called him the next day because 
he inaccurately described their hometown as being Clarksville, 
IA.
    I am going in 10 days, to Iwo Jima with a World War II 
veteran from Waterloo who landed there with my father the day 
they raised both flags on Mount Suribachi. My dad has been gone 
for 31 years and it was only through accessing his records at 
the National Personnel Records Center that I was able to start 
to piece the story of his military history together for me and 
my family.
    Yet, it is amazing as I prepared for this trip, I have also 
been researching a guy I knew in my tiny hometown of Brooklyn, 
Iowa named Harold Keller who was the second Marine to reach the 
summit of Mount Suribachi and is in the famous gung ho flag 
raising photograph taken that day. He slept under the flag that 
night.
    I have been accessing data bases for people interested in 
that battle and you would be amazed at the number of people who 
claim to be in that photograph when in Jim Bradley's book, 
everybody is identified but two people. This underscores the 
nature and extent of the problem we are having.
    We have 90-year-old veterans to whom being in that 
photograph is so important that they are claiming to be in it 
and there are many people claiming to be in it, then how do we 
protect people who are trying to preserve the integrity of 
sacrifice that these veterans have made when so many people are 
out there on eBay buying medals, buying citations because we 
desperately want to have some association with this valor? How 
do we get to the underlying problem of the demand for 
recognition that is causing all this problem? Mr. Davis. Mr. 
Sterner.
    Mr. Davis. Sir, I think one of the initial issues is 
basically verification needs to be easy. That is why a 
searchable data base is easy to access by anybody with the 
Internet. Look it up at the library or whatever. What we are 
hearing here a little is turf war obviously because people like 
to protect what they own right now.
    In the current state of the economy, stuff merges. Look at 
the commissary system. There is only one commissary system in 
the military now. There is only one accounting system in the 
military now. There is talk now on the Hill to merge the 
exchange systems and right now they are looking at possibly one 
Medical Command instead of three separate in the Army, Navy and 
Air Force.
    I know this might not be the format to talk about this but 
one Human Resources Command entity under DoD or whatever is a 
possibility but having a data base that is easy, searchable is 
absolutely vital to this issue because regardless of what 
happens with the Supreme Court, this issue is going to remain.
    Mr. Braley. On the form Mr. Chaffetz put up earlier, which 
is a form newer than the one I used to access my father's 
records, Mr. Chairman, I believe there were at least three 
options on there. If you were looking for a Marine Corps 
veteran's records, you would have no idea which of those 
options to select unless you had more sophisticated knowledge 
than is included on the form itself.
    If ease of access and yet integrity of access are the 
things we are trying to preserve, I don't understand how that 
form gets us there. Mr. Sterner.
    Mr. Sterner. Congressman Braley, first of all, Kelly 
Sullivan of Waterloo, Iowa, the only surviving granddaughter of 
the five Sullivan brothers is a good friend and she would love 
to hear your comments today.
    With reference to Mr. Harold Keller, what most people don't 
realize, what many congressional staffers don't understand, 
there are approximately 350 large boxes at the Navy Yard here 
in Washington, DC, with 3 x 5 index cards. I go there every 
Friday and copy about 1,000 and take them back to my office and 
type them up. It is data entry, it is not rocket science.
    I have estimated 12 data entry people in 1 year could type 
all of those into a data base. For that cost, we have all the 
awards to members of the U.S. Marine Corps, Coast Guard and 
Navy from inception of our awards system to present. It is 
vetted, it is from original source documents. I can type them 
quicker than you can OCR them because they are brief, so it is 
accurate. It would be a very simple matter to do this.
    As to accuracy, DoD in their report in 2009 said in order 
to be functional, a data base must be 95 percent complete. I 
would challenge the Department of Defense to audit the data 
base the Military Times currently has with 13,500 DSC 
recipients, 7,000 Navy Cross recipients, 194 Air Force Cross 
recipients and fewer than 3,500 Medals of Honor and find that 
our data base is not 99 percent complete.
    If we can do it with that, we have proven we can do it with 
the Silver Star and we can do it with the other awards. The 
chairman of the full committee mentioned Dwight Eisenhower. We 
don't just focus on valor awards. If we didn't include the 
Distinguished Service Medal, General Dwight Eisenhower would 
not be in the Hall of Valor. I think it is important we 
remember all of these awards.
    Mr. Braley. Thank you.
    I yield back.
    Mr. Chaffetz. Thank you.
    I sent a request to Secretary Panetta's office asking that 
they send one person to provide us information and they sent us 
four. I appreciate the gentlemen that are here but I have to 
tell you, we are fundamentally failing to fulfill this mission. 
The Pentagon is very mission oriented but this has gone on far 
too long.
    Some of your testimony said that you get very few 
inquiries. If I just read your testimony or heard your 
testimony, I would be led to believe that everything is fine. 
It is not fine. It is not working. Let me give you an example, 
Colonel Mostert.
    I had a situation where somebody presented some 
documentation and it was Mr. Sterner who pointed out it was 
probably false. My communication, the way I am supposed to do 
it, through the legislative liaison, the National Personnel 
Records Center, back on August 3 when they responded to me, the 
first sentence said, ``The record needed to answer your inquiry 
is not in our files.''
    That wasn't good enough so I went back again. From the 
Department of Air Force, September 12th, ``Unable to verify.'' 
I got another letter from November 29 from the Department of 
Air Force, ``It appears his record is lost in transit.'' I went 
back again. Finally, on December 28th, the Department of Air 
Force said, ``The documentation was not authentic.''
    As a sitting Member of Congress, with my own legislative 
liaison, that is the kind of response we get. I can only 
imagine what some employer in Florida, or pick any State, 
trying to go through this process, and Mr. Hebert, with all due 
respect, I don't believe that our own military can go through 
this process sufficiently and find the answers they want about 
their family and about their own records.
    When I had an opportunity to talk with Secretary Gates, I 
wanted to know about the military record of an injured service 
member who was being discharged and the transfer of his records 
from the military to the Veterans Department. It was taking 
over a year. The Secretary said, yes, that is about right. That 
is totally unacceptable.
    These gentlemen, Mr. Davis and Mr. Sterner, are calling for 
what I think is entirely reasonable which is a data base where 
people can verify the medals they have earned. There is 
sensitivity to a lot of the personnel records that nobody 
should have access to other than maybe the service member and 
their spouse. I understand that.
    Why can't we create a data base of people and what medals 
they have earned so it can be verified? To hear the four of 
you, including Mr. Levins, the five of you, you are good with 
the way it is. I think it is totally unacceptable. Again, 
explain to me, Mr. Nierle, let us start with you, what is wrong 
with what Mr. Davis and Mr. Sterner are saying? Why wouldn't we 
have one data base?
    Mr. Nierle. Mr. Chairman, to address your comment about the 
current veteran or recently discharged veteran, those 
individuals can go online and can access our systems to find 
out what awards they are entitled to. It is when you get into 
the person who was discharged prior to the electronic uploading 
of the systems that might be more involved.
    The comments that have been made do understate the problem. 
Throughout history, as I mentioned in my statement, the methods 
of recordkeeping have evolved, there are different forms, 
different media being used. The number of awards, as Mr. 
Sterner just said, you won't stop at this award and that award, 
so effectively we are talking about potentially going back in 
history and trying to record all awards ever awarded.
    Mr. Chaffetz. Isn't that worth doing?
    Mr. Nierle. That is immense.
    Mr. Chaffetz. It is hard for me to believe we are in 2012 
and there are still some questions as to whether or not we 
would do that. Are you advocating we not do that?
    Mr. Nierle. As we have said, in a perfect world, for 
example, he addressed the cards on file at the Navy Yard. They 
are imaged as well, we have them on microfilm and we search 
them routinely. To type in all those cards, to have those in a 
data base readily available would be of some benefit. The 
question would be is the cost worth that benefit?
    Mr. Chaffetz. In the U.S. Congress, per legislation, the 
directive, we routinely award what would amount to billions of 
dollars in contracts and preferences to people for their 
military service. We have employers from coast to coast all the 
time who are wanting to employ people who have achieved these 
medals and it is not some guy in a bar trying to impress a 
woman that I am worried about. This is a serious problem. We 
are talking about billions of dollars and the integrity of 
those who truly did earn their awards.
    My time has expired. Mr. Davis or Mr. Sterner, do you care 
to comment?
    Mr. Sterner. The issue that keeps being raised is the 1973 
fire. The military is redundant in paperwork if nothing else. I 
have been calling for digitizing the index cards at the Navy 
Yard. I said 14 data entry people, 1 year, that is less than $1 
million to have a complete data base. We could do all of the 
Purple Heart cards for the Navy and Marine Corps with probably 
four data entry people in 1 year.
    The problem is with the Army because it was the Army and 
the Army Air Forces and U.S. Air Force records that burned in 
the fire. This is one volume of two that has the general orders 
for the 63rd Infantry Division in World War II. The sticky 
notes are the missing general orders. The Army, in their DoD 
report, talked about how many orders were lost. There are five 
missing general orders that I haven't found. I am sure we can 
find them.
    These contain the citations for every member of that 
Division. There were approximately 100 Divisions in World War 
II that got any award under general orders--8,000 awards. To 
have a complete record of every award down to the Bronze Star 
and the Air medals, for this Division would be as difficult as 
typing up two of these books.
    I have gone through both volumes and have typed up every 
Silver Star. Every time I do that, I skip through 10 pages of 
Bronze Stars, detailing the heroism of American soldiers in 
World War II. I skip over that, why, because the Bronze Star 
isn't important? Heck no--because I simply don't have the time 
and resources. I have to limit it to the Silver Star and above. 
It is there.
    If you FOIA the men that are in this book, 90 percent of 
them will come back from Scott saying, we are sorry, the record 
burned in the fire, but you open the book and you read the 
Bronze Star and there is his name, service number, his unit, 
his military specialty. If he was an infantryman, that means he 
qualifies for a CIB now that we have vetted that was lost to 
history, his theater of action, now you know his campaign 
ribbons, the date he was in action. It may say he was attacking 
the machine gun nest, he was wounded, now we have evidence of a 
lost Purple Heart and at the very end, it has his hometown and 
home State, so you guys can remember locally your own local 
heroes. Why don't we do it? It is data entry.
    Mr. Chaffetz. Go ahead, Mr. Davis.
    Mr. Davis. Mr. Chairman, I am very, very grateful that 
there is at least one person and his wife with limited 
manpower, limited resources who wants to do this, who wants to 
make a difference to make this correction. They just want to 
take care of their own but they can't because they don't.
    If you go on the Army Web site and all the Services list 
their Medal of Honor recipients. The Marine Corps is on the 
Navy Web site. From that down to the Cross recipients, the 
Silver Star is not there. You have press releases for external 
consumption, you have internal press releases for base 
newspapers around the country but there is no accounting of all 
these.
    If you go into the Air Force's Air University, they have a 
list of Air Force Cross recipients but just for the enlisted 
folks who got it. If you go to the Army War College, they have 
a listing of Army Medal of Honor recipients but their data base 
comes from the Congressional Medal of Honor Society which is a 
501(3)(c) nonprofit. The military Services have to want to do 
it like Doug and Pam Sterner want to do it.
    Mr. Chaffetz. Thank you.
    My time has well expired here.
    I recognize Mr. Platts for 5 minutes.
    Mr. Platts. Thank you, Mr. Chairman.
    I first want to thank you, the ranking member and your 
staffs for your focus on this very important issue in helping 
to ensure that we properly honor those who have served and 
don't allow others to wrongfully and dishonorably try to use 
the service of others to their own benefit.
    I apologize, I have another hearing going on at the same 
time and a constituent is waiting for me. I don't have any 
questions other than to express thanks to all of you for your 
individual efforts and collective efforts of trying to help us 
rectify the problem and go forward in a positive way to make 
sure we do better in the future as a government and as a 
nation.
    I think probably one of the things it is important to 
emphasize here is this isn't just about preventing individuals 
from wrongfully claiming veteran status or especially heroic 
status of those who have served in harms way, but it is also 
about protecting those who have served us because we know when 
individuals wrongly get the benefit, it takes money away from 
those who have properly and heroically earned the benefit.
    Especially in difficult financial times as we are in today 
where every dollar counts, when we have people fraudulently 
benefiting from claiming veteran status and especially the 
status of service in harm's way, that means we are not doing as 
much as we could for those who are truly deserving of that 
assistance from our Nation that they earned through their 
heroic actions.
    I thank each of you and appreciate the written testimony. 
As probably has been expressed here, all Members are trying to 
be in five places at once and not able to hear your oral 
testimony.
    Mr. Chairman, to you and the ranking member, I certainly 
offer my assistance in working with you and the committee in 
any way I can to better properly identify and maintain a good 
data base. I think in your memorandum you highlight George 
Washington's quote. Throughout our Nation's history this has 
been an issue we have sought to address. Hopefully we can do 
better going forward. With your leadership, I am certain we 
will.
    With that, I yield and again, say thanks to all of our 
witnesses.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Massachusetts, Mr. 
Tierney, for 5 minutes.
    Mr. Tierney. Thank you. I won't use 5 minutes.
    Colonel Evans, Colonel Mostert and Mr. Nierle, I have no 
doubt that you do a good job at what you do. I want to thank 
you for that, but I don't think that we should burden you with 
the notion that you are setting policy on this issue. Correct 
me if I am wrong, but I don't necessarily think you are 
thinking of the overall policy for the Department of Defense 
with respect to this recordkeeping.
    I would like to have our staffs work together with the 
chairman's staff to identify with Mr. Hebert and Mr. Levins, 
who would be dealing with the policy on this issue because it 
needs to be revisited and we need to see a cost benefit 
analysis laid out with some specificity. The Department of 
Defense, for all the good it does for us on our national 
security, is the one agency that cannot pass an audit on this 
which gives us real reason to pause about whether or not we are 
doing things efficiently and appropriately.
    With the Joint Chiefs of Staff, as I mentioned earlier, so 
many things were supposed to have been done efficiently and 
appropriately in terms of consolidation and as Mr. Davis said, 
this may be one area we should look at, why we have all the 
different Services doing this independently and differently. It 
certainly doesn't make us feel comfortable up here that it is 
being done the best way it could be.
    Mr. Hebert, Mr. Levins, if you would just commit to working 
with the staffs on that. Maybe we can identify those people 
setting policy who can come before the committee and the 
chairman, if you might be interested in doing that, to find out 
what the policy is, to revisit what it ought to be and look at 
the cost benefit analysis of that. Maybe we can get some 
answers for not just Mr. Davis and Mr. Sterner, but for all of 
us.
    Thank you. I yield.
    Mr. Chaffetz. Thank you.
    I think it is worth revisiting this March 2009 report, the 
report to the Senate and House Armed Services Committees on ``A 
Searchable Military Valor Decorations Data base.'' In this 
report, one of the extracts here was ``The more centralized the 
award authority, the more likely the applicable military 
department is to have a more accurate record of the awards 
whereas the opposite correlation is also true. The more 
decentralized the award authority, the less likely the 
applicable military department is to have an accurate award and 
accurate record.''
    It goes on to say, ``The Defense Manpower Data Center 
estimates the cost of establishing a publicly accessible data 
base of valor award recipients is $250,000. The data base would 
include public access via the World Wide Web.''
    I really do believe with the hundreds of billions of 
dollars allocated to the Department of Defense, if there was a 
will, the Department of Defense would find a way to do it. I 
think this is a lack of leadership within the Pentagon. I am 
not pointing to a Democrat or a Republican. I am just saying 
the highest levels of the Department of Defense have to make 
this a priority or it won't happen.
    The gentlemen sitting here today, I appreciate your 
service. You are doing what you are asked to do. I am not here 
blaming you individually but collectively, the Department of 
Defense is failing. They have failed to recognize the problem, 
they have failed to recognize the need, and they have never put 
forward a plan to solve this problem.
    I can tell you as long as the people of Utah put me in this 
position, I will push the Department of Defense to do this. 
There is $250,000 in there somehow, somewhere to get this done. 
We will hold hearing after hearing if need be, but this is 
something that our Nation cares about. People are being ripped 
off, they are being scammed and we owe it to the men and women 
who earned these awards to make sure there is a way to verify 
and recognize those people who truly did earn those awards.
    I know I speak for Members on both sides of the aisle, this 
Congress will be committed to making this happen. I appreciate 
your dedication. I cannot thank Mr. Davis or Mr. Sterner 
enough, I thank the family that came here, and for those people 
who have gone through this nightmare of having their valor 
questioned, the people who have overstated it, I think we as a 
Congress have to have a commitment. I am committed to it and I 
hope that sooner rather than later, the Department of Defense 
is committed to it. This hearing is now concluded. We 
appreciate your service.
    Thank you.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
